TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                  Attestation Review of the Internal Revenue
                      Service’s Fiscal Year 2009 Annual
                    Accounting of Drug Control Funds and
                             Related Performance



                                        January 29, 2010

                              Reference Number: 2010-10-022




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                          January 29, 2010


 MEMORANDUM FOR CHIEF FINANCIAL OFFICER
                CHIEF, CRIMINAL INVESTIGATION DIVISION


 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Attestation Review of the Internal Revenue
                             Service’s Fiscal Year 2009 Annual Accounting of Drug Control Funds
                             and Related Performance (Audit # 200910025)

 This report presents the results of our attestation review of the Internal Revenue Service’s (IRS)
 Fiscal Year (FY) 2009 Office of National Drug Control Policy (ONDCP) Detailed Accounting
 Submission and Performance Summary Report (the Report). The purpose of this review was to
 express a conclusion about the reliability of each assertion made in the Report. This review was
 part of our FY 2010 Annual Audit Plan and addressed the major management challenge
 regarding Leveraging Data to Improve Program Effectiveness and Reduce Costs.

 Impact on the Taxpayer
 The IRS reported that it expended $60.6 million on ONDCP-related activities and participated in
 462 ONDCP-related cases that resulted in convictions in FY 2009. Based on our review, nothing
 came to our attention that caused us to believe that the assertions in the Report are not presented
 in all material respects in accordance with ONDCP-established criteria. Complete and reliable
 financial and performance information is critical to the IRS’ ability to accurately report on the
 results of its operations to both internal and external stakeholders, including taxpayers.

 Synopsis
 Based on our review, nothing came to our attention that caused us to believe that the assertions in
 the Report are not presented in all material respects in accordance with ONDCP-established
 criteria. The IRS reported that it expended $60.6 million on ONDCP-related activities and
                          Attestation Review of the Internal Revenue Service’s
                                 Fiscal Year 2009 Annual Accounting of
                             Drug Control Funds and Related Performance


completed 652 ONDCP-related investigations in FY 2009. For FY 2009, the IRS also reported it
participated in 462 ONDCP-related cases that resulted in convictions.
In addition, based on a recommendation in our FY 2008 attestation report, 1 the IRS informed us
that it adjusted its year-end performance information for FY 2009 to include only cases that
occurred in FY 2009. Our review of the IRS’ Performance Summary Report for FY 2009 did not
identify any cases reported that did not occur in FY 2009.

Management’s Response
We made no recommendations in this report as a result of our work performed during this
review. IRS management agreed with the facts and conclusions presented in this report.
Management’s complete response to the draft report is included as Appendix V.
Copies of this report are also being sent to the IRS managers affected by the report results.
Please contact me at (202) 622-6510 if you have questions or Nancy A. Nakamura, Assistant
Inspector General for Audit (Management Services and Exempt Organizations), at
(202) 622-8500.




1
 Attestation Review of the Internal Revenue Service’s Fiscal Year 2008 Annual Accounting of Drug Control Funds
and Related Performance (Reference Number 2009-10-040, dated January 30, 2009).
                                                                                                                 2
                               Attestation Review of the Internal Revenue Service’s
                                      Fiscal Year 2009 Annual Accounting of
                                   Drug Control Funds and Related Performance




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Summary of the Attestation Review of the Fiscal Year 2009
          Office of National Drug Control Policy Detailed Accounting
          Submission and Performance Summary Report ...........................................Page 3
          Corrective Actions Were Implemented to Adjust Year-End
          Performance Information ..............................................................................Page 3

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 5
          Appendix II – Major Contributors to This Report ........................................Page 7
          Appendix III – Report Distribution List .......................................................Page 8
          Appendix IV – Internal Revenue Service Fiscal Year 2009 Detailed
          Accounting Submission and Related Performance Summary Report ..........Page 9
          Appendix V – Management’s Response to the Draft Report .......................Page 15
        Attestation Review of the Internal Revenue Service’s
               Fiscal Year 2009 Annual Accounting of
            Drug Control Funds and Related Performance




                   Abbreviations

FY           Fiscal Year
IRS          Internal Revenue Service
ONDCP        Office of National Drug Control Policy
                          Attestation Review of the Internal Revenue Service’s
                                 Fiscal Year 2009 Annual Accounting of
                              Drug Control Funds and Related Performance




                                            Background

The Anti-Drug Abuse Act of 1988 1 establishes as a
policy goal the creation of a drug-free America. A key            National Drug Control Program
provision of the Act is the establishment of the Office of       agencies are required to submit
                                                                   to the Director of the ONDCP,
National Drug Control Policy (ONDCP) to set priorities,
                                                                 not later than February 1 of each
implement a national strategy, and certify Federal               year, a detailed accounting of all
Government drug control budgets. The Internal                       funds expended during the
Revenue Service (IRS) supports the National Drug                        previous fiscal year.
Control Strategy through continued support of the
Organized Crime Drug Enforcement Task Force. The
mission of the Criminal Investigation Division in Federal law enforcement’s anti-drug efforts is
to reduce or eliminate the financial gains (profits) of major narcotics trafficking and money
laundering organizations through the use of its unique financial investigative expertise and
statutory jurisdiction.
This review was conducted as required by the ONDCP 2 and the ONDCP Circular: Drug Control
Accounting, dated May 1, 2007. The National Drug Control Program agencies 3 are required to
submit to the Director of the ONDCP, not later than February 1 of each year, a detailed
accounting of all funds expended (the ONDCP Circular requires amounts obligated) during the
previous fiscal year. Agencies also need to identify and document performance measure(s) that
justify the results associated with these expenditures. The Chief Financial Officer, or another
accountable senior level executive, of each agency for which a Detailed Accounting Submission
is required, shall provide a Performance Summary Report to the Director of the ONDCP.
Further, the Circular requires that each report be provided to the agency’s Inspector General for
the purpose of expressing a conclusion about the reliability of each assertion made in the report
prior to its submission. Beginning in Fiscal Year (FY) 2006, ONDCP funding became a part of
the IRS budget. In prior years, IRS-related ONDCP funds expended were reimbursed by the
Department of Justice.
We conducted our fieldwork in the IRS Headquarters offices of the Chief Financial Officer and
Chief, Criminal Investigation Division, in Washington, D.C., during the period September 2009
through January 2010. Our review was conducted in accordance with attestation standards
established by the American Institute of Certified Public Accountants. An attestation review is
substantially less in scope than an examination, the objective of which is the expression of an

1
  Pub. L. No. 100-690, 102 Stat. 4181 (1988).
2
  21 U.S.C. Section 1704 (d) (1998).
3
  A National Drug Control Program agency is defined as any agency that is responsible for implementing any aspect
of the National Drug Control Strategy.
                                                                                                         Page 1
                      Attestation Review of the Internal Revenue Service’s
                             Fiscal Year 2009 Annual Accounting of
                          Drug Control Funds and Related Performance



opinion on the ONDCP Detailed Accounting Submission and Performance Summary Report.
Accordingly, we do not express such an opinion. Detailed information on our audit objective,
scope, and methodology is presented in Appendix I. Major contributors to this report are listed
in Appendix II.




                                                                                          Page 2
                          Attestation Review of the Internal Revenue Service’s
                                 Fiscal Year 2009 Annual Accounting of
                              Drug Control Funds and Related Performance




                                     Results of Review

Summary of the Attestation Review of the Fiscal Year 2009 Office of
National Drug Control Policy Detailed Accounting Submission and
Performance Summary Report
We reviewed the IRS’ ONDCP Detailed Accounting Submission and Performance Summary
Report (the Report) for FY 2009, which ended September 30, 2009 (see Appendix IV). This
Report was prepared pursuant to 21 U.S.C. Section 1704(d) and the ONDCP Circular: Drug
Control Accounting, dated May 1, 2007. The IRS is responsible for preparing the report.
The Report assertions, as required by Section 6.b. of the ONDCP Circular, include statements
that the methodology used is reasonable and accurate, including explanations and documentation
of estimation assumptions used; the methodology disclosed was the actual methodology used;
and the data presented are associated with obligations against a financial plan that reflects
changes, if made. The assertions, as required by Section 7.b. of the ONDCP Circular, also
include statements that the performance reporting system is appropriate and applied,
explanations for not meeting any performance targets are reasonable, and the methodology used
to establish performance targets is reasonable and correctly applied. ONDCP-established criteria
require well-documented sources of data, documented and explained calculations, and complete
and fair presentation of data from financial systems.
Based on our review, nothing came to our attention that caused us to believe that the assertions in
the Report are not presented in all material respects in accordance with ONDCP-established
criteria. The IRS reported that it expended $60.6 million on ONDCP-related activities and
completed 652 ONDCP-related investigations in FY 2009. For FY 2009, the IRS also reported it
participated in 462 ONDCP-related cases that resulted in convictions.

Corrective Actions Were Implemented to Adjust Year-End
Performance Information
In our prior review 4 of the FY 2008 Report, we found that 18 of the 478 convictions reported
actually occurred prior to FY 2008. We similarly found that 3 of the 827 ONDCP-related
investigations reported as completed were actually completed prior to FY 2008. In addition, we
identified 18 cases among the cases the IRS reported as recommended for prosecution but


4
 Attestation Review of the Internal Revenue Service’s Fiscal Year 2008 Annual Accounting of Drug Control Funds
and Related Performance (Reference Number 2009-10-040, dated January 30, 2009).
                                                                                                       Page 3
                      Attestation Review of the Internal Revenue Service’s
                             Fiscal Year 2009 Annual Accounting of
                          Drug Control Funds and Related Performance



ultimately resulted in acquittal or dismissal that occurred prior to FY 2008. We recommended
that the IRS adjust its year-end performance information to reflect timing differences caused by
late case postings.
Based on the recommendation in our FY 2008 attestation report, the IRS informed us that it
adjusted its year-end performance information for FY 2009 to include only cases that occurred in
FY 2009. Our review of the IRS’ Performance Summary Report for FY 2009 did not identify
any cases reported that did not occur in FY 2009.
While this report is an unrestricted public document, the information it contains is intended
solely for the use of the IRS, the United States Department of the Treasury, the ONDCP, and
Congress. It is not intended to be, and should not be, used by anyone other than these specified
parties.




                                                                                           Page 4
                       Attestation Review of the Internal Revenue Service’s
                              Fiscal Year 2009 Annual Accounting of
                           Drug Control Funds and Related Performance



                                                                                   Appendix I

        Detailed Objective, Scope, and Methodology

The overall objective of this review was to perform an attestation review of the IRS’ reporting of
Fiscal Year 2009 ONDCP expenditures and related performance for the purpose of expressing a
conclusion about the reliability of each assertion made in the Detailed Accounting Submission
and Performance Summary Report. To accomplish our objective, we:
I.     Obtained an understanding of the process used to prepare the FY 2009 Detailed
       Accounting Submission and Performance Summary Report.
       A. Discussed the process used to record and report ONDCP expenditures and
          performance information with responsible IRS personnel.
       B. Obtained documents such as written procedures and supporting worksheets that
          evidence the methodology used.
II.    Evaluated the reasonableness of the drug methodology process for detailed accounting
       submissions.
       A. Reviewed data supporting the Detailed Accounting Submission to establish its
          relationship to the amounts being reported.
       B. Reviewed the estimation methods for consistency with reported amounts.
III.   Performed sufficient verifications of reported obligations for detailed accounting
       submissions to support our conclusion on the reliability of the assertions.
       A. Verified that the Detailed Accounting Submission included all of the elements
          specified in Section 6 of the ONDCP Circular: Drug Control Accounting.
       B. Verified that the drug control budget submitted to the ONDCP was consistent with
          the Detailed Accounting Submission.
       C. Verified the mathematical accuracy of the obligations presented in the Table of
          FY 2009 Drug Control Obligations.
       D. Traced the information contained in the Table of FY 2009 Drug Control
          Obligations to the supporting documentation.
IV.    Evaluated the reasonableness of the methodology used to report performance information
       for National Drug Control Program activities.
       A. Reviewed data supporting the Performance Summary Report to establish its
          relationship to the National Drug Control program activities being reported.
                                                                                            Page 5
                     Attestation Review of the Internal Revenue Service’s
                            Fiscal Year 2009 Annual Accounting of
                         Drug Control Funds and Related Performance



V.    Performed sufficient verifications of reported performance information to support our
      conclusion of the reliability of the assertions.
      A. Verified that the Performance Summary Report included all of the elements specified
         in Section 7 of the ONDCP Circular: Drug Control Accounting.
      B. Verified the mathematical accuracy of the performance information presented.
      C. Traced the performance information presented to the supporting documentation.
      D. Reviewed the supporting documentation for reasonableness.
VI.   Evaluated any corrective actions implemented by the IRS in response to the FY 2008
      audit finding regarding the ONDCP reporting process.




                                                                                        Page 6
                    Attestation Review of the Internal Revenue Service’s
                           Fiscal Year 2009 Annual Accounting of
                        Drug Control Funds and Related Performance



                                                                           Appendix II

                Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Jeffrey M. Jones, Director
Anthony J. Choma, Audit Manager
Angela Garner, Lead Auditor
Joseph P. Smith, Senior Auditor
Rashme Sawhney, Auditor




                                                                                   Page 7
                     Attestation Review of the Internal Revenue Service’s
                            Fiscal Year 2009 Annual Accounting of
                         Drug Control Funds and Related Performance



                                                                  Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Deputy Chief, Criminal Investigation Division SE:CI
Deputy Chief Financial Officer OS:CFO
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Chief, Criminal Investigation Division SE:CI
       Chief Financial Officer OS:CFO




                                                                            Page 8
      Attestation Review of the Internal Revenue Service’s
             Fiscal Year 2009 Annual Accounting of
          Drug Control Funds and Related Performance



                                                   Appendix IV

Internal Revenue Service Fiscal Year 2009
   Detailed Accounting Submission and
  Related Performance Summary Report




                                                             Page 9
Attestation Review of the Internal Revenue Service’s
       Fiscal Year 2009 Annual Accounting of
    Drug Control Funds and Related Performance




                                                       Page 10
Attestation Review of the Internal Revenue Service’s
       Fiscal Year 2009 Annual Accounting of
    Drug Control Funds and Related Performance




                                                       Page 11
Attestation Review of the Internal Revenue Service’s
       Fiscal Year 2009 Annual Accounting of
    Drug Control Funds and Related Performance




                                                       Page 12
Attestation Review of the Internal Revenue Service’s
       Fiscal Year 2009 Annual Accounting of
    Drug Control Funds and Related Performance




                                                       Page 13
Attestation Review of the Internal Revenue Service’s
       Fiscal Year 2009 Annual Accounting of
    Drug Control Funds and Related Performance




                                                       Page 14
       Attestation Review of the Internal Revenue Service’s
              Fiscal Year 2009 Annual Accounting of
           Drug Control Funds and Related Performance



                                                    Appendix V

Management’s Response to the Draft Report




                                                              Page 15
